Record No. _ _

Jnlibe
~upreme

<!Court of tbe ij\initeb ~tate~
PEDRO GUTIERREZ,

a/k/a Magoo, a/k/a Light, a/kla Inferno,
Petitioner,
v.
VNITED· STATES .OF .AM:ERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Pedro Gutierrezt requests leave to file the: attached
Petition for a Writ of Certiorari to the United States Supreme Court for.
the Fourth Circuit withqut prepayment of costs and to proceed in forma
paa.peris pursuant to Rule 39. The United States Court of Appeals for
the Fourth Circuit appointed counsel to represent Petitioner. Petitioner
has remained incarcerated since the commencement of his case, and, on
information and belief, is indigent.
November 10, 2020
Respectfully Submitted,
Pedro Gutierrez

na E. Araneda ·
EDA LAW FIRM
Suite 200
5400 Glenwood. Avenue
Raleigh; NC 27612

... ;L1L ...........

919~788-9225

jea@aranedalaw.com

Counsel for Petitioner
Pedro Gutierrez

Appeal: 18-4656

Doc: 2-1

F1led: 09/18/2018

Total Pages:(l of 8}

Pg: 1 of 2

FlLED: September 18, 20 18
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-4656
(3 : 17-cr-00 134-FDW -DSC-21)
UNITED STATES OF AMERICA
Plaintiff- Appellee
V.

PEDRO GUTIERREZ, a/k/a Magoo, alkla Light, a/k/a Inferno
Defendant - Appellant

ORDER

The court appoints Jo rgelina E. Araneda to represent Pedro Gutierrez on
appeal. Counsel is referred to the CJA Pnymcnt Mcmonmdum and the CJA
cVouchcr Page for information on appointment terms and procedures.
CJA authorization for preparation of transcript is obtained by submitting an
AUTH-24 request in the district eVoucher system. New appellate counsel must
contact district eVoucher staff for appointment to the underlying district court case
in order to submit the AUTH-24 request for district judge approval and the CJA 24
voucher tor transcript payment. Counsel must also submit a Transcript Order Form

Appeal: 18-4656

Doc: 2-1

Flied· 09118/2018

Pg: 2 of 2

Total Pages:(2 of 8)

to the court reporter and district court and file the same in the court of appeals with
the docketing statement. Upon filing of the Transcript Order Form, the Fourth
Circuit will set deadlines for completion of the transcript.
CJA 20 and 21 vouchers are submitted for payment through the Fourth
Circuit's CJA eVoucher system. Upon receiving email notification of this
appointment from eVoucher, counsel may create CJA 20 and 21 vouchers for use in
maintaining time and expense records and paying for expert services.
In light of this appointment, appellate counsel is granted access to sealed
district court material, with the exception of ex parte or in camera material. Any
transcripts or record material sent to prior counsel shall be provided by prior
counsel to newly appointed counsel.
The court having appointed new counsel for purposes of this appeal, any
motion for further substitution of counsel shall be disfavored.
For the Court--By Direction
/s/ Patricia S. Connor. Clerk

Appeal: 18-4656

Doc: 2-2

F1led: 09/18/2018

Pg: 1 of G

Total Pages:(3 of 8)

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
OFFICE OF THE CLERK
II 00 East Main Street, Suite 50 I

Richmond, Virginia 23219-3517
www.~.:a4.w.~:outi..;. gov

Telephone
804-916-2700

Patricia S. Connor
Clerk

September 18, 2018

CJA COUNSEL NOTICE

No. 18-4656,

US v. Pedro Gutierrez
3:17-cr-00134-FDW-DSC-21

TO: Ms. Jorgelina E. Araneda
ARANEDA LAW FIRM
5400 Glenwood Avenue
Suite 200
Raleigh, NC 27612
919-788-9225
jea@aranedalaw.com
Thank you for accepting appointment on appeal in this case. This oftice will
work with you in any way necessary in connection with the appointment. The
case manager for this case is RJ Warren, and the following information is
provided for your use (click on an underlined document to access the document
on the court's web site, www.ca4.uscourts.gov).

Initial Forms: Following forms must be filed within 14 days.
• Appe~1rance of Counsel (must be registered for electronic case filing)
• Docketing Statement (required for appointments at the beginning of the
appeal)

• Transcript Order Form (order any necessary transcript)
Appointment and Case Information: Time and expense records must be
maintained in accordance with the CJA Pavment Memorandum to permit

Appeal: 18 4656

Doc: 2 ·?

=1led: 09/18/2018

Pg: 2 of 6

Total Pages:(4 of 8)

payment at the end of the case.
All case filings must be made using the court's Electronic Case Filing system
(CM/ECF). Counsel not yet registered for electronic filing should proceed to the
court's web site to register as an ECF filer. See Required Steps for
Registration as an ECF Filer.
Copies of any documents filed on appeal to date are accessible on the
court's docket. Documents filed by a party while proceeding pro se will not
be considered by the court unless renewed by counsel.
Record: Counsel should register for and use a separate, fee exempt PACER
account in CJA cases. Go to: http:\\www.pacer.gov to register. The district
court's PACER docket and electronic documents are accessible through a link to
the district court docket from the appellate docket. The "Create Appendix"
option enables counsel to combine multiple documents into one PDF record for
printing or saving.
Presentence Report, Statement of Reasons, Transcripts: Since the
presentence report and statement of reasons are sealed documents and the
transcript is restricted from public access during the redaction period, counsel
may need to make special arrangements to obtain these documents. If not
available from former counsel, the documents can be obtained from the district
court. (See Record Access for New Appellate Counsel). The Fourth Circuit's
appointment deputy, Lisa McFarland, can also assist counsel in obtaining record
items.
CONTACT INFORMATION:
Former counsel:
Brett T. Wentz
Direct: 910-256- 8044
Email: brett@isleylaw.com
ISLEY & WENTZ, PLLC
Suite C
401 Chestnut Street
Wilmington, NC 28401
Defendant:
PEDRO GUTIERREZ- #33580-058
USP Atlanta
U.S. PENITENTIARY

Appeal: 18-4656

Doc: 2-2

Filed: 09/18/2018

Pg: 3 of 6

Total Pages:(5 of 8)

P.O. BOX 150160
ATLANTA, GA 30315
Lisa McFarland, Deputy Clerk
804-916-2744
cc: Defendant
Frank G. Johns
Amy Elizabeth Ray

SEALED & CONFIDENTIAL MATERIALS
Internet Availability of Docket & Documents
Fourth Circuit case dockets and documents are available on the Internet via the
Judiciary's PACER system (Public Access to Court Electronic Records). The Fourth
Circuit docket is available on the Internet even if the district court docket was
sealed. If a party's name was sealed in the district court, it should be replaced by
"Under Seal" or a pseudonym on appeal.
Due to the electronic availability of court documents, the federal rules prohibit
including certain personal data identifiers in court filings. In addition, parties should
not include any data in their filings that they would not want on the Internet.
Counsel should advise their clients on this subject so that an informed decision can
be made. Responsibility rests with counsel and the parties, not with the clerk.
Documents filed by the parties in immigration and social security cases are not
accessible over the Internet to the public. In immigration and social security cases,
public Internet access is limited to the court's docket, orders, and opinions.

Federal Rules of Procedure
The federal rules of procedure require filers to redact any of the following personal
data identifiers (PDis) if included in court filings: ( 1) social security and tax ID
numbers must be limited to last four digits; (2) minor children must be identified by
their initials only; (3) dates of birth must show the year only; (4) financial account
numbers must be limited to the last four digits only; and (5) home addresses in
criminal cases must be limited to city and state only. The federal rules establish
limited exceptions to these redaction requirements. See Fed. R. App. P. 25(a)(5);
Fed. R. Civ. P. 5.2; Fed. R. Crim. P. 49.1; Fed. R. Bankr. P. 9037

Judicial Conference Privacy Policy

Appeal: 18-4656

Doc 2-2

:=1lecl: 09/18/2018

Pg: 4 of 6

Total Pages:(6 of 8)

In addition, the judiciary's regulation on Privacy Policy for Electronic Case Files
prohibits filers from including any of the following criminal documents in the
public file: (I) unexecuted summonses or warrants; (2) bail or presentence reports;
(3) statement of reasons in judgment of conviction; (4) juvenile records; (5)
identifying information about jurors or potential jurors; (6) CJ A financial affidavits;
(7) ex parte requests to authorize CJA services and (8) any sealed documents, such
as motions for downward departure for substantial assistance, plea agreements
indicating cooperation, or victim statements.
Local Rule 25(c)
Local Rule 25( c) limits the sealing of documents by requiring that sealed record
material be separated from unsealed material and placed in a sealed volume of the
appendix and by requiring the filing of both sealed, highlighted versions and public,
redacted versions of briefs and other documents.
Documents that were not sealed before the agency or district court will not be
sealed in this court unless a motion to seal is filed and granted in this court.
Since the ECF events for sealed tilings make the documents accessible only to the
court, counsel must serve sealed documents on the other parties in paper form.
Sealed Volume of Appendix
If sealed record material needs to be included in the appendix, it must be placed in a
separate, sealed volume of the appendix and filed with a certificate of
confidentiality. In consolidated criminal cases in which presentence reports are
being filed for multiple defendants, each presentence report must be placed in a
separate, sealed volume served only on Government counsel and counsel for the
defendant who is the subject of the report.
•

Use ECF event-SEALED APPENDIX to file sealed electronic appendix
volume(s). One sealed paper volume must be sent to the court. If the case is
tentatively calendared for oral argument, 3 additional paper copies of the
sealed appendix must be filed, with additional copies being ordered by the
court if otherwise needed. Cover of sealed appendix volume must be marked
SEALED, and paper copies must be placed in envelopes marked SEALED.
Sealed volume must be served on other parties in paper form.
• Use ECF event-Certificate of confidentiality to identify authority for
treating material as sealed and to identify who may have access to sealed
material. A paper copy of the certificate of confidentiality must accompany

Appeal: 18-4656

•

Doc: 2-2

.=1led: 09/18/2018

Pg: 5 of 6

Total Pages:(? of 8)

the paper copy of the sealed appendix filed with the court.
Use ECF event-APPENDIX to file public electronic appendix volumes(s).
One public paper volume must be sent to the court. If the case is tentatively
calendared for oral argument, 3 additional paper copies of the appendix must
be filed, with additional copies being ordered by the court if othetwise
needed. Paper copies of public volumes of appendix do not need to be served
on other parties if they were served with public appendix in electronic form.

Sealed Version of Brief
If sealed material needs to be referenced in a brief, counsel must file both a sealed,
highlighted version of the brief and a public, redacted version of the brief, as
well as a certificate of confidentiality.
•

Use ECF event-SEALED BRIEF to file sealed electronic version of brief in
which sealed material has been highlighted. One sealed paper copy must be
sent to the court. If the case is tentatively calendared for oral argument, 3
additional paper copies of sealed brief must be filed, with additional copies
being ordered by the court if othetwise needed. Cover of sealed brief must be
marked SEALED, and paper copies must be placed in envelopes marked
SEALED. Sealed version must be served on other parties in paper form.
• Use ECF event-Certificate of contidentiality to identify authority for
treating material as sealed and to identify who may have access to sealed
material. A paper copy of certificate of confidentiality must accompany the
paper copy of the sealed brief filed with the court.
• Use ECF event-BRIEF to file public electronic version of brief from which
sealed material has been redacted. One paper copy must be sent to the court.
If the case is tentatively calendared for oral argument, 3 additional paper
copies of the brief must be filed, with additional copies being ordered by the
court if othetwise needed. Paper copies of public brief do not need to be
served on other parties.

Sealed Version of Motions and Other Documents
If sealed material needs to be referenced in a motion or other document, counsel
must file both a sealed, highlighted version and a public, redacted version, as
well as a certificate of confidentiality.
• Use ECF event-SEALED DOCUMENT to file sealed electronic version of
document in which sealed material has been highlighted. First page of

Appeal: 18-4656

Doc: 2-2

::iled: 09/18/2018

Pg· 6 of 6

Total Pages:(8 of 8)

document must be marked SEALED. No paper copies need be filed, but
other parties must be served in paper form.
• Use ECF event-Certificate of confidentiality to identify authority for
treating material as sealed and to identify who may have access to sealed
material.
• Use the appropriate ECF event (e.g., MOTION or RESPONSE/ANSWER)
to file public electronic version of document from which sealed material has
been redacted. No paper copies of public document are needed for filing or
servtce.
Motions to Seal
Counsel should file a motion to seal if the material was not previously sealed by
virtue of the Privacy Policy for Electronic Case Files, or by statute, rule, regulation,
or order. Counsel should also file a motion to seal if it is necessary to seal the
entire brief or motion and not possible to create a public, redacted version.
The motion to seal must appear on the public docket for tive days; therefore,
counsel must file both a scaled, highlighted version of the motion to seal (along
with a certificate of conlidentiality) and a public, redacted version of the motion
to seal. The motion to seal must identify the document or portions thereof for
which sealing is requested, the reasons why sealing is necessary, the reasons a less
drastic alternative will not afford adequate protection, and the period of time for
which sealing is required.
For further information on redacting information from filings, please see No. 19,
How do I redact items from plcadinl!s?

